 U.S. Department of Agriculture
  Office of Inspector General
       Northeast Region
          Audit Report



        Food and Nutrition Service
National School Lunch Program Operations
         New York City, New York




                     Report No.
                     27010-28-Hy
                     September 2002
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                             OFFICE OF INSPECTOR GENERAL
                                       Northeast Region
                                          Suite 2-2230
                             5601 Sunnyside Avenue, Stop 5300
                               Beltsville, Maryland 20705-5300



DATE:         September 30, 2002

REPLY TO
ATTN OF:      27010-28-Hy

SUBJECT:      Food and Nutrition Service
              National School Lunch Program Operations
              New York City, New York

TO:           Frances E. Zorn
              Regional Administrator
              Northeast Region
              Food and Nutrition Service

This report presents the results of the subject audit. Your September 11, 2002,
response to the draft report has been incorporated into the final report and attached as
exhibit F. The New York City Department of Education’s September 20, 2002,
response and the New York State Department of Education’s September 19, 2002,
response have also been incorporated into the report and attached as exhibit G and H.

We have a general agreement on the findings. To reach management decision, the
Food and Nutrition Service needs to issue a Letter of Determination to the New York
State Department of Education that identifies the actions to be taken and the planned
completion dates. In accordance with Departmental Regulation 1720-1, please furnish
a written reply within 60 days describing the corrective actions taken and/or planned
along with the timeframes for implementing the corrective actions. Please note that the
regulation requires a management decision be reached on all findings and
recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by you and your staff
during the audit.


        /S/

REBECCA ANNE BATTS
Regional Inspector General
  for Audit
                       EXECUTIVE SUMMARY
                     FOOD AND NUTRITION SERVICE
             NATIONAL SCHOOL LUNCH PROGRAM OPERATIONS
                       NEW YORK CITY, NEW YORK

                          Audit Report No. 27010-28-Hy


                                     This report presents the results of the Office of
      RESULTS IN BRIEF               Inspector  General’s (OIG) audit of National
                                     School Lunch Program (NSLP) operations, as
                                     administered by the New York City Board of
         Education, during school year (SY) 1998/1999. The Board of Education’s
         Office of School Food and Nutrition Services (OSFNS) served as the local
         school food authority (SFA), the New York State Department of Education
         served as the State agency (SA), and the U.S. Department of Agriculture’s
         (USDA) Food and Nutrition Service (FNS) served as the funding agency.
         For SY 1998/1999 operations, the SFA received about $204 million in FNS
         reimbursement and about $8 million in SA reimbursement for serving over
         115 million lunches.

            We evaluated the SFA’s meal accountability system and management
            controls that were designed to provide reasonable assurance as to the
            accuracy of its meal claims and reimbursement for SY 1998/1999. We
            observed over 23,000 meals served at 35 schools and analyzed 6,673
            monthly meal claims. The meals served to children appeared to be fresh,
            wholesome, and appetizing. However, we found that required program
            management controls were not implemented, or were ineffective as
            implemented by the SFA, in preventing invalid payments. We concluded
            that material internal control weaknesses exist in the SFA’s processes for
            validating eligibility for free and reduced-price meals, as well as for
            determining the reasonableness of the number of meals claimed for
            reimbursement. As a result, the SFA’s application eligibility verification
            process does not provide reasonable assurance that children served
            meals were correctly classified as eligible for free or reduced-price meals
            and the SFA was entitled to the reimbursement received. Also, the SFA’s
            edit check process did not provide reasonable assurance that each school
            was not claiming more meals served than children in attendance and the
            SFA’s school monitoring visits were not adequate to identify and correct
            meal counting and claiming deficiencies.




USDA/OIG-A/27010-28-Hy                                                          Page i
                     We found the following material control weaknesses.

                     •   The SFA’s application eligibility verification process does not provide
                         reasonable assurance that children served meals were correctly
                         classified as eligible for free or reduced-price meals. Although the SFA
                         generally met the regulatory requirement1 for performing the
                         verification process, SFA management did not take prudent corrective
                         actions when a very large error rate was disclosed. For SY 1998/1999,
                         the SFA’s verification process determined that over 55.8 percent of the
                         applications sampled had to be reclassified either because the
                         household did not respond or the household response disclosed the
                         original classification was in error. We believe that a 55.8 percent
                         error rate must trigger additional corrective actions since the
                         reimbursement provided by FNS is based upon the eligibility
                         classification of each child. As a result, the potential exists for very
                         large amounts of excess reimbursement if the applications are not
                         correctly classified. Also, SFA management failed to initiate corrective
                         actions when very high error rates were disclosed during its verification
                         process in SY 1996/1997, 1997/1998, 1999/2000, 2000/2001, and
                         2001/2002.

                     •   For those applications found to be in error during the eligibility
                         verification process, the SFA did not establish controls to ensure the
                         applications were corrected at the school level.         We reviewed
                         corrective actions at 23 of the 224 schools with applications tested
                         during the process. We found 17 schools did not correct the
                         applications and adjust meal claims. As a result, the SFA received
                         excess reimbursement of $18,932.

                     •   The applications at 74 schools in the base-year of Provision 2
                         operations were not included in the sample of applications subject to
                         the eligibility verification process. Provision 2 is an alternate meal
                         counting and claiming procedure that allows a school to apply the
                         percentages of free, reduced-price, and paid meals in the base-year to
                         subsequent years’ meal claims without requiring applications each
                         subsequent year. Provision 2 can be extended in 4-year cycles, as
                         long as socioeconomic conditions remain stable. Also, Provision 2
                         provides that the base-year applications are only subject to the
                         verification process in the base-year. These 74 schools received
                         reimbursement of about $11.7 million.

                     •   The SFA did not ensure children who had been properly determined
                         eligible for free meals under direct certification procedures2 were

1
    Title 7, CFR § 245.6a, dated January 1, 1998.
2
    FNS’ Eligibility Guidance for School Meals Manual dated August 1991.

USDA/OIG-A/27010-28-Hy                                                                    Page ii
                excluded from the verification universe and sample. As a result, the
                SFA’s verification efforts were not targeted to those applications where
                income determines the level of assistance to be provided.

            •   The SFA did not perform the required average daily attendance to daily
                meal count edit check, by category (free, reduced-price, or paid), by
                school, to provide reasonable assurance that each school was not
                claiming more meals served than children in attendance.           We
                performed a computer analysis of 6,673 monthly claims and found that
                in 1,647 claims, the schools appeared to have claimed over
                590,000 meals valued at over $982,210 were served in excess of
                children in attendance. Due to the incompatibility and inadequacy of
                the SFA’s attendance records and meal service records to document
                what child eats at which school, neither we nor the SFA were able to
                substantiate actual overclaims in many cases. However, subsequent
                to our review, the SFA reviewed meal claim and attendance
                information for 14 schools that we had identified as having potential
                overclaims.      For 130 monthly claims with potential excess
                reimbursement of over $217,000, the SFA confirmed that at least 71
                claims exceeded the number of children in attendance, for an excess
                reimbursement of at least $120,210.

            •   The SFA did not timely or effectively monitor its schools’ meal counting
                and claiming systems. The SFA did not assign sufficient resources to
                complete the reviews or establish controls that ensure corrective
                actions were taken on review findings.

            •   Applications used as a basis for calculating NSLP reimbursement for
                Provision 2 schools were not always retained for the duration of
                Provision 2 operations. OIG surveyed those 94 schools operating
                under Provision 2 for over 3 years. Only 21 schools confirmed
                applications were maintained to support the meal claims.

            See exhibit A for the Summary of Monetary Results.

                                     In consultation with the SA and SFA, FNS
  KEY RECOMMENDATIONS                needs to develop, and require the SFA to
                                     implement, an effective application eligibility
                                     verification  process   that   will  provide
         reasonable assurance that children approved for free or reduced-price
         meals are, in fact, eligible. If the SFA does not take timely action to
         implement management controls over the eligibility verification process,
         FNS should consider withholding administrative funding. FNS should also
         recover excess reimbursement of $18,932 because applications were not
         corrected.


USDA/OIG-A/27010-28-Hy                                                          Page iii
            We also recommend that FNS direct the SA and SFA to perform an edit
            check using daily attendance and daily meal counts, by category, and
            develop controls that would follow up on potential problems and yield
            accurate meal claims. If the SFA does not take timely action to implement
            this edit check, FNS should consider withholding administrative funding.
            In addition, FNS needs to determine how much of the $982,210 in
            potential excess reimbursement needs to be recovered. Further, to
            strengthen the onsite monitoring of school meal counting and claiming
            systems, FNS needs to direct the SA to require the SFA to establish a
            process that will provide more effective management controls for a large
            NSLP operation, including controls to ensure identified deficiencies are
            corrected. Adequate resources should be allocated and staff should be
            trained to ensure effective monitoring visits.

            Finally, FNS should direct the SA to conduct a review to determine if
            Provision 2 schools are retaining applications in accordance with the SA
            guidance. If applications are not retained, require the SFA to take new
            applications prior to granting an extension of the Provision 2 period.

                                      The September 11, 2002, response from FNS
     AGENCY RESPONSE                  generally agreed with the findings and
                                      recommendations presented. On September
                                      19, 2002, the SA responded that it is
         committed to insuring corrective actions that will result in improvement in
         the SFA’s application, verification, and meal claiming procedures. The SA
         also responded that it supports efforts to ensure the fiscal integrity of the
         program and will collaborate with the SFA to ensure identified deficiencies
         are corrected. On September 20, 2002, the SFA responded that it is fully
         committed to addressing the three major concerns which call for
         strengthening the processes for verifying eligibility for free and reduced-
         price meals, submitting accurate meal reimbursement claims, and
         providing greater oversight of and accountability for schools’ meal
         counting and claiming procedures. The SFA’s response also provided
         several details of the planned corrective action. Applicable portions of
         these responses are incorporated, along with our position, in the Findings
         and Recommendations section of the report. The full text of the FNS, SA,
         and SFA responses are included as exhibits F, G and H, respectively, of
         the report.




USDA/OIG-A/27010-28-Hy                                                        Page iv
                                         TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ...................................................................................... iii
   AGENCY RESPONSE ............................................................................................... iv
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 3
   SCOPE ........................................................................................................................ 3
   METHODOLOGY ........................................................................................................ 4
FINDINGS AND RECOMMENDATIONS ........................................................................ 6
   CHAPTER 1 ................................................................................................................ 6
   REQUIRED MANAGEMENT CONTROLS WERE NOT IMPLEMENTED OR WERE
   INEFFECTIVE IN PREVENTING INVALID PROGRAM PAYMENTS......................... 6
   FINDING NO. 1............................................................................................................ 6
   RECOMMENDATION NO. 1 ....................................................................................... 8
   RECOMMENDATION NO. 2 ..................................................................................... 10
   FINDING NO. 2.......................................................................................................... 11
   RECOMMENDATION NO. 3 ..................................................................................... 13
   RECOMMENDATION NO. 4 ..................................................................................... 13
   RECOMMENDATION NO. 5 ..................................................................................... 14
   FINDING NO. 3.......................................................................................................... 14
   RECOMMENDATION NO. 6 ..................................................................................... 18
   RECOMMENDATION NO. 7 ..................................................................................... 19
   RECOMMENDATION NO. 8 ..................................................................................... 20
   RECOMMENDATION NO. 9 ..................................................................................... 21
   RECOMMENDATION NO. 10 ................................................................................... 22
   FINDING NO. 4.......................................................................................................... 22
   RECOMMENDATION NO. 11 ................................................................................... 24
   RECOMMENDATION NO. 12 ................................................................................... 25

USDA/OIG-A/27010-28-Hy                                                                                                  Page v
   FINDING NO. 5.......................................................................................................... 26
   RECOMMENDATION NO. 13 ................................................................................... 27
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................. 28
   EXHIBIT B – SCHOOLS VISITED TO TEST MEAL COUNTING AND CLAIMING
   SYSTEMS ................................................................................................................. 29
   EXHIBIT C – SCHOOLS VISITED TO TEST WHETHER APPLICATIONS WERE
   CORRECTED BASED UPON VERIFICATION RESULTS ....................................... 30
   EXHIBIT D – MEAL COUNTING AND CLAIMING DEFICIENCIES ......................... 31
   EXHIBIT E – RECORD RETENTION WEAKNESSES AT PROVISION 2 SCHOOLS
   .................................................................................................................................. 33
   EXHIBIT F – FOOD AND NUTRITION SERVICE RESPONSE TO THE DRAFT
   REPORT.................................................................................................................... 35
   EXHIBIT G – STATE AGENCY RESPONSE TO THE DRAFT REPORT................. 39
   EXHIBIT H – SCHOOL FOOD AUTHORITY RESPONSE TO THE DRAFT REPORT
   .................................................................................................................................. 43
ABBREVIATIONS......................................................................................................... 59




USDA/OIG-A/27010-28-Hy                                                                                                      Page vi
                             INTRODUCTION

                                    On June 4, 1946, Congress passed the
       BACKGROUND                   National School Lunch Act (42 U.S.
                                    Code 1751), which authorizes Federal school
                                    lunch assistance. The intent of the Act, as
         amended, is to safeguard the health and well being of the Nation’s
         children by providing them with nutritious foods and to encourage the
         domestic consumption of nutritious agricultural commodities and other
         foods. This is accomplished by assisting States, through grants-in-aid and
         other means, in providing an adequate supply of food and facilities for the
         establishment, maintenance, operation, and expansion of nonprofit school
         lunch programs.

           FNS is the USDA agency responsible for administering the NSLP. FNS is
           headquartered in Alexandria, Virginia, and has seven regional offices
           nationwide. The FNS Northeast Regional Office, located in Boston,
           Massachusetts, is responsible for monitoring and overseeing operations in
           New York. Within New York, the New York State Education Department
           serves as the SA and is responsible for overseeing program operations
           within New York City. Within New York City, the New York City Board of
           Education’s Office of School Food and Nutrition Services serves as the
           local SFA and is responsible for operating the NSLP in accordance with
           regulations. Each SA is required to enter into a written agreement with
           FNS to administer the NSLP and each SA enters into agreements with
           school districts to oversee day-to-day operations. The New York City SFA
           is the governing body that administered the NSLP in 1,292 public and 173
           non-public schools as of June 1999.

           The general NSLP requirements are codified in Title 7, Code of Federal
           Regulations (CFR) § 210. Requirements for determining eligibility for free
           and reduced-price meals and free milk are codified in 7 CFR § 245. In
           accordance with 7 CFR § 250, USDA also provides donated foods to
           SFAs to assist in operating the nonprofit lunch program. Generally,
           schools must collect applications on an annual basis from households of
           enrolled children and make annual determinations of their eligibility for free
           or reduced-price meals. These schools must also count the number of
           free, reduced-price, and paid meals served at the point-of-service on a
           daily basis. However, Section 111, Public Law 103-448, amended the
           National School Lunch Act to provide three alternative meal counting
           and claiming procedures: Provision 1, Provision 2, and Provision 3. A
           description of these alternative procedures follows.


USDA/OIG-A/27010-28-Hy                                                           Page 1
           •   Provision 1 reduces the burden of application processing by allowing
               eligibility for free meal benefits to be certified for a 2-year period in
               schools where at least 80 percent of the children enrolled are eligible
               for free or reduced-price meals. Thus, applications are processed
               once every 2 years. Other operations are performed following
               traditional requirements.

           •   Provision 2 not only reduces the burden of application processing but
               also simplifies meal counting and claiming procedures. During the first
               or base-year under Provision 2, schools process applications and
               count meals in accordance with traditional requirements but provide all
               meals at no charge. However, during the next 3 years, the schools
               only count the number of meals served each day. Reimbursement is
               determined by applying the percentages of free, reduced-price, and
               paid meals claimed during the corresponding month of the base-year
               to the total meal count for the claiming month. After the base-year,
               schools do not obtain new applications or make new eligibility
               determinations for as long as the schools remain under Provision 2.
               However, the base-year applications continue to be the source data for
               the claims as long as the schools remain under Provision 2. At the end
               of the 4-year cycle period, Provision 2 may be extended for 4 more
               years if the income level, as adjusted for inflation, of the school’s
               population has remained stable.

           •   Provision 3 significantly reduces the burden of application processing
               and meal counting and claiming procedures by allowing schools to
               receive a comparable level of cash assistance as received during the
               base-year. During the base-year, schools process applications and
               count meals in accordance with traditional requirements and serve
               meals at no charge, the same as for Provision 2 schools. However, for
               the next 4-years, the schools make no new eligibility determinations.
               The current year reimbursement is calculated by adjusting base-year
               reimbursement to reflect changes in enrollment and inflation. At the
               end of each 4-year cycle period, an additional 4-year extension may
               also be granted if the income level continues to remain stable.

           As of June 1999, the New York City SFA operated under Provision 2
           procedures at 375 schools and operated under traditional procedures at
           1,090 schools. During SY 1998/1999, the SFA served over 115 million
           lunches: 39.6 million lunches or 34 percent of the total at Provision 2
           schools and 75.4 million lunches or 66 percent of the total at the




USDA/OIG-A/27010-28-Hy                                                          Page 2
           traditional schools. The SFA received USDA and SA reimbursement of
           about $204 million and $8 million, respectively.

                                       The objective of this audit was to assess the
         OBJECTIVES                    adequacy of the SFA’s meal accountability
                                       system and management controls designed to
                                       provide reasonable assurance as to the
          accuracy of meal claims in SY 1998/1999. To accomplish this, we
          evaluated: (1) the effectiveness of the SFA’s eligibility verification process
          and determined whether the results of the process were used to improve
          program operations; (2) whether the base-year applications were retained
          as source documentation for those schools operating for more than
          3 years under Provision 2; (3) the records used to approve extension of
          Provision 2 status at participating schools; (4) the effectiveness of SFA
          onsite monitoring of school meal counting and claiming systems; (5) the
          effectiveness of the edit checks applied to assure the reasonableness of
          each school’s meal counts, and (6) whether each school we visited had
          adequate procedures to accurately count, record, and report the number
          of meals served to eligible children.

                                      The scope of our review primarily covered
             SCOPE                    NSLP operations for SY 1998/1999. The SFA
                                      received NSLP reimbursement of about
                                      $204 million during this period for serving
           lunches at up to 1,465 schools per month. However, records for other
           periods were reviewed as deemed necessary. We performed audit work
           at the FNS Northeast Regional Office located in Boston, Massachusetts;
           the SA located in Albany, New York; and SFA offices located in Brooklyn,
           New York. Audit work was performed during the period April 1999 through
           April 2001.

           We reviewed NSLP operations at 35 schools (see exhibit B) that served a
           high percentage of meals compared to enrollment to observe meal service
           and evaluate meal counting and claiming systems during April and
           May 1999. To select these schools, we analyzed claims for the first
           4 months of SY 1998/1999 and identified 75 traditional public schools,
           39 traditional non-public schools, and 94 Provision 2 schools that claimed
           meals served to an average of over 90 percent of the enrolled students
           during at least one month. We eliminated those schools that had enrollment
           of less than or equal to 100 for traditional public schools, 200 for traditional
           non-public schools, and 500 for Provision 2 schools. We limited our testing,
           while selecting schools with high NSLP participation from each category.
           We selected 29 traditional public schools, 3 traditional non-public schools,
           and 3 Provision 2 schools for onsite review. These schools claimed that
           4,142,233 meals were served resulting in the SFA receiving NSLP
           reimbursement of $7,785,350. We also evaluated the actions taken by

USDA/OIG-A/27010-28-Hy                                                             Page 3
           23 meal service sites that had been sampled as part of the SFA’s
           application eligibility verification process to determine if eligibility errors
           had been corrected.

           We analyzed 6,673 of the 14,527 monthly meal claims submitted by the
           schools to determine if meals claimed exceeded children in attendance.
           These claims resulted in reimbursement of over $112.9 million. We were
           not able to analyze the remaining 7,854 monthly claims that resulted in
           reimbursement of over $91 million due to problems with the quality and
           completeness of the Board of Education’s attendance data. Therefore,
           our audit scope was impaired.

           We projected the results of the SFA’s random sample of applications
           tested in the application eligibility verification process to the SFA’s
           reported universe of applications to determine the impact of the errors
           disclosed. We found the SFA’s documentation of the universe of
           applications and the sample selection process supported the SFA’s count
           of children reported eligible for free or reduced-price lunches and the
           number selected for testing.

           Audit work was performed in accordance with generally accepted
           government auditing standards.

                                      To accomplish our audit objectives, we
       METHODOLOGY                    reviewed FNS, SA, and SFA regulations,
                                      policies, procedures, manuals, and instructions
                                      governing NSLP operations. We also reviewed
         the SA’s most recent administrative review of the SFA’s NSLP operations
         (conducted 1995) and the SFA’s corrective actions taken in response to the
         administrative review findings and recommendations. The following audit
         procedures were also performed.

           •   We evaluated the SFA’s application eligibility verification process and the
               actions taken to correct errors, when identified.

           •   We sent confirmation letters to the 94 schools operating under
               Provision 2 procedures for more than 3 years to determine if
               documentation (base-year applications) was maintained to support the
               claiming percentages used to calculate claims for reimbursement.

           •   We evaluated the socioeconomic data used to approve extensions of
               Provision 2 status after the initial period of authorization.




USDA/OIG-A/27010-28-Hy                                                            Page 4
           •   We evaluated edit check controls used to assure the reasonableness
               of claims for reimbursement and calculated the financial impact when
               daily meal counts, by category, exceeded average daily attendance.

           •   We requested SY 1998/1999 attendance, enrollment, and average daily
               attendance data maintained by the New York City Board of Education.
               We were provided monthly data for about 1,200 schools. However, our
               use of this data was impaired due to the quality and completeness of the
               information. This data did not include attendance information for
               173 non-public schools that operate the NSLP under the SFA’s direction
               or attendance information for at least 250 traditional public schools that
               operated the NSLP. Further, the data provided included attendance data
               for 225 schools that did not operate the NSLP.

           •   We obtained monthly school claims for free, reduced-price and paid
               meals from the SA or the SFA. We were provided monthly claim data for
               up to 1,465 schools. We excluded from further analysis: (1) claims
               submitted for 375 Provision 2 schools because these schools do not
               count meals served, by category (Provision 2 schools report the total
               meal count and apply historical percentages to calculate the number of
               free, reduced-price, and paid meals served); (2) claims submitted for 172
               non-public schools (one was already excluded as a Provision 2 school)
               because the average daily attendance information was not readily
               available on computer media from these schools; and (3) the claims
               submitted for at least 250 traditional public schools for which we were not
               provided corresponding attendance data.

           •   We analyzed comparable information on the attendance file and the
               claims file for an average of 667 schools each month and evaluated the
               reasonableness of 6,673 monthly claims. We calculated the maximum
               number of meals by category, for each claim; multiplied the number
               children enrolled, by category, by the average daily attendance for the
               month; and multiplied that product by the number of serving days
               during the month. We compared our calculated maximum monthly
               free, reduced-price, and paid meals with each school’s monthly claim,
               by category.

           •   We reviewed SFA monitoring reports and interviewed SFA staff. We
               compared the SFA’s monitoring reports with the results of our onsite
               reviews to determine whether similar problems were found and to
               evaluate the adequacy of corrective actions.




USDA/OIG-A/27010-28-Hy                                                            Page 5
             FINDINGS AND RECOMMENDATIONS


                     REQUIRED MANAGEMENT CONTROLS WERE NOT
 CHAPTER 1              IMPLEMENTED OR WERE INEFFECTIVE IN
                       PREVENTING INVALID PROGRAM PAYMENTS


            The SFA’s meal accountability system and management controls designed
            to provide reasonable assurance as to the accuracy of its meal claims in
            SY 1998/1999 were not implemented, or were ineffective as implemented.
            We concluded that material internal control weaknesses exist in the SFA’s
            processes for validating eligibility for free and reduced-price meals, as well
            as for determining the reasonableness of the number of meals claimed for
            reimbursement. Further, we found major weaknesses in the SFA’s
            monitoring of school counting and claiming systems and record retention
            at Provision 2 schools. These conditions occurred, in part, because the
            SFA misinterpreted or did not follow regulatory requirements. However,
            the SFA did not take prudent corrective actions when the application
            eligibility verification process identified material noncompliance. As a
            result, the SFA’s application eligibility verification process does not provide
            reasonable assurance that children served meals were correctly classified
            as eligible for free or reduced-price meals and the SFA was entitled to the
            reimbursement received. Also, since applications found in error by the
            verification process were not corrected and more meals were claimed than
            children in attendance, the SFA received excess reimbursement of at least
            $139,142.

                                         During SY 1998/1999, the SFA did not
        FINDING NO. 1                    effectively implement the required application
                                         eligibility verification process to provide
 SFA APPLICATION ELIGIBILITY             reasonable assurance that children served
 VERIFICATION PROCESS DOES               meals were correctly classified as eligible for
 NOT MINIMIZE THE POTENTIAL              free or reduced-price meals. Although the
   FOR INVALID PAYMENTS                  SFA generally met the regulatory requirement
                                         for sampling its applications, the SFA did not
           take prudent corrective actions after a large error rate was disclosed.
           Over 55.8 percent of the applications sampled had to be reclassified either
           because the household did not respond or the household response
           disclosed the original classification was in error.



USDA/OIG-A/27010-28-Hy                                                             Page 6
                     Federal regulations3 require the SFA to verify the information on a sample
                     of applications by December 15 of each school year to ensure the validity
                     of program payments. This regulation also authorizes the SFA to choose
                     to verify up to 100 percent of all applications to improve program integrity.
                     Regulations4 also state that if verification activities fail to confirm eligibility
                     or the household fails to cooperate with verification efforts, the SFA shall
                     reduce or terminate benefits, as applicable.

                     OIG reported problems with the integrity of the application eligibility
                     verification process in Audit Report No. 27010-11-Ch, Verification of
                     Applications in Illinois, issued in August 1997. Subsequently, FNS
                     reported problems with the integrity of the verification determinations of
                     applicant eligibility for free and reduced-price meals in the NSLP as a
                     material program weakness in its 1999 and 2000 Federal Manager’s
                     Financial Integrity Act reports.       To address this weakness, FNS
                     announced pilot projects in January 2000, which would permit selected
                     SFAs and SAs to test alternatives to the application procedures and
                     verification process to reduce the misreporting of eligibility information.

                     We reviewed the SFA’s application eligibility verification process to
                     determine what corrective actions were being implemented by the SFA.
                     We found the SFA attempted to perform the minimum number of
                     verifications required by Federal regulation5 and did not take corrective
                     actions when material noncompliance was disclosed (see Finding No. 2
                     for additional problems found with the SFA’s verification process). This
                     material noncompliance was also reported in New York City’s 1997, 1998,
                     and 1999 Single Audit reports.6 These Single Audits reported that
                     44.3 percent, 45.5 percent, and 51.3 percent of the applications tested for
                     1997, 1998, and 1999; respectively, were not eligible to receive free or
                     reduced-price lunches based on the verification results. The Single Audits
                     recommended that the SFA implement additional procedures to ensure
                     the children deemed eligible for free or reduced-price meals were, in fact,
                     eligible.   However, the SFA chose not to perform any additional
                     verification testing and/or implement additional management controls
                     beyond the minimum required by Federal regulation. The error rate has
                     continued to climb.       The SFA’s verification process identified a
                     59.5 percent error rate for SY 1999/2000, a 65.1 percent error rate for
                     SY 2000/2001, and a 69.5 percent error rate for SY 2001/2002.


3
    Title 7, CFR § 245.6a, dated January 1, 1998.
4
    Title 7, CFR § 245.6a(e), dated January 1, 1998.
5
    Title 7, CFR § 245.6a, dated January 1, 1998.
6
    The Single Audit Act of 1984 (Public Law 98-502) and the Single Audit Act Amendments of 1996 (Public Law 104-156), as
     implemented by Office of Management and Budget Circular No. A-133, revised June 24, 1997; require annual agency-wide audits
     of local governments similar to the New York City Board of Education. The Circular provides guidance to auditors on how to
     conduct these agency-wide audits. These audits are referred to as Single Audits.

USDA/OIG-A/27010-28-Hy                                                                                               Page 7
            The SFA reported the following results of its SY 1998/1999 verification
            testing.

            Category                                           Number           Percent

            Free applications reclassified to the
            reduced-price category based upon a response          119             3.578

            Free applications reclassified to the paid
            category based upon a response                          80            2.405

            Free applications reclassified to the paid
            category because no response was received           1,068            32.111

            Reduced-price applications reclassified to the
            free category based upon a response                     32             .962

            Reduced-price applications reclassified to
            the paid category based on a response                   86            2.586

            Reduced-price applications reclassified
            to the paid category based on no response             472            14.191

            Total applications with an error                    1,857            55.833

            Applications not requiring a change                 1,469            44.167

                          Total                                 3,326          100.000


            We believe that a 55.8 percent error rate must trigger additional corrective
            actions since the reimbursement provided by FNS is based upon the
            eligibility classification of each child. As a result, the potential exists for a
            very large amount of excess reimbursement if the applications are not
            correctly classified. Moreover, the SFA’s lack of prudent corrective action
            in response to its verification results has a material impact on program
            integrity.

                                    In consultation with the SA and the SFA,
 RECOMMENDATION NO. 1               develop and require the SFA to implement, an
                                    application verification process that will provide
                                    reasonable assurance that children determined
       eligible for free or reduced-price meals are, in fact, eligible.



USDA/OIG-A/27010-28-Hy                                                               Page 8
           FNS Response

           FNS officials responded that they would ensure that the SA requires the
           SFA to fully comply with current regulations pertaining to verification.

           SA Response

           The SA officials agree with the recommendation, will ensure the SFA
           complies with current regulations, and suggest the SFA work more closely
           with eligible families to get them to produce needed documentation.

           SFA Response

           The SFA officials agreed that the verification results point to the need for
           action and will take steps to strengthen the eligibility and verification
           processes. To strengthen the verification process, the SFA proposed the
           following.

           (1) The SFA will use computer matching with the local welfare agency to
               identify the children who are eligible for free meals based upon direct
               certification procedures. These children will be excluded from the
               universe of applications to be tested.

           (2) The SFA will implement additional measures to obtain responses
               from the parents or guardians of children whose applications were
               sampled by supplementing the required letters with telephone calls
               and perhaps home visits.

           (3) The SFA will include all Provision 2 schools in the base year of
               operation and all other schools in the universe to be tested.

           (4) For schools that are selected, applications will be randomly sampled.

           OIG Position

           We are concerned that the SFA’s proposed corrective actions may not
           provide reasonable assurance that children determined eligilble for free or
           reduced price meals are, in fact, eligible. While the SFA’s proposed
           corrective actions will improve the process, the SFA has not specifically
           proposed performing a statistically valid test or other testing designed to
           provide reasonable assurance.

           By identifying children who are approved for free or reduced-price meals
           based upon applications in the computer system, the SFA can accurately
           identify and document the universe subject to verification. However, the

USDA/OIG-A/27010-28-Hy                                                         Page 9
           SFA’s proposed corrective action for drawing the sample of applications to
           be tested is not clearly explained. The SFA responded that for schools
           selected, applications would be randomly sampled. This does not explain
           why or how the schools will be selected.

           To reach management decision, FNS need to implement our
           recommendation by working with the SA and SFA to ensure that the SFA
           implements an application verification process that produces reasonable
           assurance concerning eligibility. Once reliable results are obtained, then
           the need for additional corrective actions can be assessed.

                                      Consider withholding administrative funds
  RECOMMENDATION NO. 2                from the SA if the SFA does not take timely
                                      action to implement effective management
                                      controls over the application verification
                                      process.

           FNS Response

           FNS officials responded that, based upon communication with the SA, the
           SA understands the need for improvement at the SFA and has already
           been constructively engaged in corrections and improvements. If the SFA
           does not implement the improvements, FNS would consider withholding
           administrative funds.

           SA Response

           The SA officials responded that the SA would collaborate with the SFA to
           ensure that the application verification process is conducted properly.
           They also responded that this recommendation is not necessary to ensure
           corrective action by the SA.

           SFA Response

           The SFA officials responded that the measures taken and will be taken will
           fully meet OIG’s concerns and there will be no need to withhold
           administrative funds.

           OIG Position

           To reach management decision, FNS needs to ensure that
           Recommendation No. 1 is implemented for SY 2002/2003. Otherwise,
           FNS should implement this recommendation.



USDA/OIG-A/27010-28-Hy                                                      Page 10
                                          SFA controls over the application eligibility
        FINDING NO. 2                     verification process need to be strengthened.
                                          The SFA excluded applications at 74 of
                                          86 Provision 2 schools in the base-year of
CONTROLS OVER THE ELIGIBILITY operation in the sample of applications tested
 VERIFICATION PROCESS NEED                and did not ensure that children properly
       STRENGTHENING                      determined eligible on the basis of direct
                                          certification   were   excluded    from   the
           verification sample and universe. Also, for those applications found to be
           in error, the SFA did not implement controls to ensure eligibility
           determinations were corrected and claims adjusted, at the school level.
           As a result, the effectiveness of the SFA’s verification process for
           validating recipient eligibility is reduced. Also, the SFA received excess
           reimbursement of $18,932 because applications found in error were not
           corrected.

                     Federal regulations7 require the SFA to verify the information on a sample
                     of applications by December 15 of each school year to ensure the validity
                     of program payments. The random sampling method used by the SFA
                     requires the SFA to verify a minimum of the lesser of 3 percent or 3,000
                     applications. Also, regulations8 require the SFA to reduce or terminate
                     benefits when the verification does not confirm the accuracy of the child’s
                     eligibility for the benefits. According to FNS’ Eligibility Guidance for
                     School Meals Manual, issued in August 1991, verification efforts are not
                     required for children who have been determined eligible for free meals
                     under direct certification procedures. Further, regulations9 provide that
                     applications at Provision 2 schools not in the base-year of operation are
                     not subject to the current year verification process.

                     For SY 1998/1999, the SFA reported a universe of 820,521 applications
                     as of October 1998 and reported that 3,326 applications were included in
                     the verification process. We reviewed the SFA’s verification process and
                     disclosed the following concerns.


                     •    The SFA could not provide documentation that children determined
                          eligible under direct certification procedures were excluded from the
                          income verification process. Further, we could not determine, nor
                          could the SFA provide evidence, that these children were excluded
                          from either the verification universe or the sample. As a result, the
                          SFA could not provide assurance that only non-direct certification

7
    Title 7, CFR § 245.6a(a), dated January 1, 1998.
8
    Title 7, CFR § 245.6a(e), dated January 1, 1998.
9
    Title 7, CFR § 245.6a(a)(5), dated January 1, 1998.

USDA/OIG-A/27010-28-Hy                                                                 Page 11
               applications were sampled for verification. Therefore, the verification
               process was not functioning as prescribed.

           •   The SFA did not include 41,203 free and 2,428 reduced-price
               applications at 74 of the 86 schools in the base-year of Provision 2
               operations, in the sample of applications subject to verification. This
               occurred, in part, because the SFA limits its sample each year to
               approximately 25 percent of its schools. We were advised that this
               sampling methodology was put in place so that the sample at each
               school would be approximately 15 applications, rather than about
               two applications from each of over 1,460 schools.                While this
               methodology appears acceptable for traditional schools, there is a
               potential adverse impact on schools operating under alternative meal
               counting and claiming systems (i.e., Provision 2). Regulations for
               Provision 2 schools require eligibility verification only in the base-year.
               Therefore, if a Provision 2 school, in its base-year is not included in the
               SFA’s 25 percent sample, there is an increased risk that uncorrected
               errors in eligibility determinations can impact reimbursement for up to
               10 years. These 74 schools received SY 1998/1999 reimbursement of
               $11,709,849.

           •   The SFA did not establish controls to ensure that applications found in
               error during the verification process were corrected at the school level.
               We visited 23 of the 224 schools (10 percent) that were subject to the
               verification process during SY 1998/1999 to determine whether these
               applications were corrected in each school’s meal counting and
               claiming process.       The SFA tested 363 applications at these
               23 schools (see exhibit C), and determined that 225 applications were
               in error. We found 17 schools did not correct 137 applications, or over
               60 percent of those required to be corrected. This occurred, in part,
               because school level personnel did not take corrective action.
               However, our interviews with SFA officials also disclosed that they did
               not have controls to ensure the applications were corrected and claims
               adjusted, at the school level. We calculated an excess reimbursement
               of $18,932 for January through June 1999.

           The SFA’s application eligibility verification process does not provide
           reasonable assurance that only those children eligible for free and
           reduced-price meals, in fact, receive them. Further, the SFA efforts were
           not targeted to applications where income and other data is used to
           determine the level of assistance provided.




USDA/OIG-A/27010-28-Hy                                                           Page 12
                                        Provide guidance to the SA and SFA as to
  RECOMMENDATION NO. 3                  how direct certifications and Provision 2
                                        schools are to be treated in the application
                                        eligibility verification process.
           FNS Response

           FNS officials agreed to implement this recommendation.

           SA Response

           The SA officials agree with the recommendation and will continue to
           provide guidance and direction to the SFA to ensure direct certification
           letters are excluded from the verification pool. The SA will also
           recommend that the SFA’s verification process include base year
           Provision 2 schools.

           SFA Response

           The SFA responded that it would exclude children determined eligible for
           free meals under the direct certification process from the verification
           process and include the Provision 2 schools in the base year of operations
           in the verification process.

           OIG Position

           To reach management decision, FNS needs to provide the guidance.

                                        Require the SA to direct the SFA to establish
  RECOMMENDATION NO. 4                  an internal control process to ensure that
                                        applications found in error are corrected at the
                                        school level.

           FNS Response

           FNS officials agreed to implement this recommendation.

           SA Response

           The SFA officials agreed with the recommendation and will direct the SFA
           to establish internal controls to ensure all applications are corrected at the
           school level.




USDA/OIG-A/27010-28-Hy                                                          Page 13
            SFA Response

            The SFA officials agreed to implement the recommendation.

            OIG Position

            To reach management decision, FNS needs to provide the agreed to
            guidance.

                                       Recover    the   excess   reimbursement     of
  RECOMMENDATION NO. 5                 $18,932.


            FNS Response

            FNS officials agree to bill the SA for $18,932 and establish an account
            receivable for that amount.

            SA Response

            The SA agreed with the recommendation and commented the claim is
            appropriate since the SFA did not make the required changes at the
            schools.

            SFA Response

            The SFA did not respond to the recommendation.

            OIG Position

            To reach management decision, FNS needs to bill the SA for the $18,932
            and establish an account receivable for that amount in its accounting
            records.

                                      During SY 1998/1999, the SFA did not perform
       FINDING NO. 3                  the required average daily attendance to daily
                                      meal count edit check, by category, by school,
 AVERAGE DAILY ATTENDANCE             to provide reasonable assurance that each
 EDIT CHECK NOT PERFORMED             school was not claiming more meals served
                                      than children in attendance. This occurred, in
          part, due to the SA’s misunderstanding of the circumstances that make
          this edit check mandatory. Also, the SFA officials were not aware of the
          need to perform this edit check control. To determine the effectiveness of,
          and need for this edit control, we performed an analysis of 6,673 monthly
          meal claims that resulted in reimbursement of over $112.9 million. We

USDA/OIG-A/27010-28-Hy                                                      Page 14
                      found that in 1,647 claims the schools appeared to have claimed over
                      590,000 more meals were served than children in attendance. Due to the
                      incompatibility and inadequacies of the SFA’s attendance records and
                      meal count records, neither the SFA nor OIG could substantiate actual
                      overclaims in many cases. However, the SFA did review detailed records
                      for 131 claims and identified 71 claims were in excess of attendance. As
                      a result, the SFA received excess reimbursement of at least $120, 210.

                      According to regulations10 the SFA is to compare each school’s daily
                      counts of free, reduced-price, and paid lunches against the product of the
                      number of children in that school currently eligible for free, reduced-price,
                      and paid lunches, respectively, times an attendance factor. When this edit
                      check identifies more meals were served than children in attendance,
                      regulations11 require the SFA to followup with the school and correct the
                      claim before the SFA’s monthly claim is submitted to the SA. This
                      procedure is required12 for any SFA that was identified as having
                      Performance Standard 1 meal counting and claiming violations in its most
                      recent SA administrative review. Performance Standard 1 requires13 that
                      all free, reduced-price, and paid lunches claimed for reimbursement are
                      served only to children determined eligible for those free, reduced-price,
                      and paid lunches, respectively; and are counted, recorded, consolidated,
                      and reported through a system which consistently yields correct claims. A
                      violation exists when a SA finds the system used by a school does not
                      consistently yield correct claims. During SY 1999/2000, the SFA received
                      USDA donated foods in accordance with regulations14 at a rate of
                      $.1475 per meal claimed in SY 1998/1999.

                      The most recent SA administrative review of the SFA’s NSLP operations
                      (performed in 1995) reported Performance Standard 1 critical meal
                      counting and claiming violations at 7 of the 78 schools tested and required
                      a total of 25 schools to amend meal claims. Therefore, the SA should
                      have required the SFA to implement the average daily attendance to meal
                      count, by category, edit check. However, the SA did not require the edit
                      check. This occurred because the SA officials believed that, if less than
                      10 percent of the schools had Performance Standard 1 violations, the SFA
                      was not required to perform the cited edit check. The SA officials told us
                      the edit check was not required because another regulation15 did not
                      require the SA to perform a followup review if less than 10 percent of the
                      schools had Performance Standard 1 violations. We discussed the SA’s

10
     Title 7, CFR § 210.8(a)(3)(i), dated January 1, 1998.
11
     Title 7, CFR § 210.8a)(4), dated January 1, 1998.
12
     Title 7, CFR § 210.8(a)(2)(ii), dated January 1, 1998.
13
     Title 7, CFR §210.18(b)(2)(i), dated January 1, 1998.
14
     Title 7, CFR § 250, dated January 1, 1998.
15
     Title 7, CFR § 210.18(i)(3)(i), dated January 1, 1998.

USDA/OIG-A/27010-28-Hy                                                                    Page 15
           position with FNS officials. FNS officials disagreed with the SA’s position
           and confirmed that the SFA should have performed the required average
           daily attendance edit check because the SA’s review had disclosed
           Performance Standard 1 critical meal counting and claiming violations.

           We reviewed the SFA’s internal controls over meal counting and claiming
           and found the SFA performs edit checks to ensure that: (1) the daily count
           of meals served, by category, does not exceed approved applications on
           hand; (2) the total daily count of meals served does not exceed school
           enrollment; (3) the total daily count of meals served does not exceed
           average daily attendance; and (4) the total daily count of meals served
           equals the sum of the daily free, reduced-price, and paid meal counts.
           However, the SFA does not perform the required edit check that compares
           each school’s daily count of free, reduced-price, and paid lunches, by
           category, against the product of the number of children in that school
           currently eligible for free, reduced-price, and paid lunches, respectively,
           times an attendance factor.

           To determine whether this edit check would disclose meals were claimed
           in excess of children in attendance by category, we performed an analysis
           similar to that required by regulation. We compared, by computer
           analysis, the product of the average daily attendance percentage times
           the total number of serving days each month times the number of enrolled
           free, reduced-price, and paid category children; against monthly meal
           counts, by category, on an average of 667 schools for each month during
           SY 1998/1999. We were not able to perform this analysis on all monthly
           claims submitted by up to 1,465 schools due to lack of necessary
           information or problems with data incompatibility. Therefore, our review
           was impaired. However, from the data obtained, we were able to identify
           serious discrepancies in meal claims when compared to attendance
           records. We analyzed 6,673 of the 14,527 claims submitted by the
           schools. We found one or more inconsistencies on 1,647 claims or
           25 percent of the claims tested. We found at least one questionable claim
           filed by 424 of the 667 schools tested. We found the following.

           •   Twenty percent or 1,346 claims, reported at least 485,000 more free
               meals served than children in attendance eligible for free meals. Three
               percent, or 185 claims, reported at least 5,000 more reduced-price
               meals served than children in attendance eligible for reduced-price
               meals.

           •   Four percent, or 279 claims, reported at least 100,000 more paid
               meals served than children in attendance without approved
               applications.


USDA/OIG-A/27010-28-Hy                                                       Page 16
           Our computer analysis determined the SFA could have overstated the
           number of meals served and the SFA could have received excess
           reimbursement totaling at least $982,210. We also calculated the SFA
           could have obtained excess USDA donated foods valued at $87,261
           during SY 1999/2000 by overstating the number of meals served.

           To substantiate our analysis results, we reviewed the meal counting and
           claiming process and information available to perform the required edit
           check at the 35 schools we visited. We found that the meal claim form the
           SFA requires schools to complete contains a section to report daily
           attendance. However, the schools did not always report or accurately
           report this information. Further, we noted that when the information was
           reported, it was not always input in the SFA‘s computer system.
           Therefore, the information provided to the SFA has not always been
           accurate or effectively used. We did find, however, that another source of
           daily attendance information is available from a database maintained by
           the Board of Education. While we found some inconsistencies in this
           data, it could be used to perform a daily attendance to daily meal count
           edit check, by category, at each school. At a minimum, it can be used as
           a management tool to identify potential problems at individual schools.

           Our visits to 35 schools confirmed that 9 schools were, in fact, claiming
           meals served in excess of children in attendance, by category. For
           example, on May 19, 1999, we visited PS 249, a Provision 2 school.
           According to school records for May 19, enrollment was 1,082 children
           and 989 children were in attendance. The school claimed 1,034 lunches
           were served. Further, our count of meals served at the point-of-service
           disclosed the school served only 984 lunches. Therefore, the school
           overstated its meal count by 50 meals. Had the SFA performed the daily
           comparison of attendance to meal count, the excessive meal claim may
           have been avoided. Our analysis also disclosed this school claimed more
           meals served than children in attendance on 3 of 12 other days we tested.

           Our analysis disclosed that 25 percent of the claims we tested reported
           more meals served than children in attendance, using monthly averages.
           Our onsite visits confirmed that 26 percent of those schools visited
           claimed more meals than children in attendance on a daily basis.
           Therefore, we concluded that the SFA needs to implement an effective
           control to detect and preclude schools from claiming more meals served
           than children in attendance, by category (free, reduced-price, and paid).

           During subsequent meetings, the SFA officials questioned our computer
           analysis in situations where a school building housed more than one
           school for attendance purposes but recorded one combined meal count.
           During the audit, however, the SFA did not provide any listing of schools

USDA/OIG-A/27010-28-Hy                                                      Page 17
           where these situations existed. SFA officials acknowledged that no listing
           exists to perform a more accurate analysis. Subsequently, the SFA
           attempted to analyze 131 monthly claims from 14 schools with a potential
           overclaim valued at $217,278.84. They confirmed that eight schools did
           not have children from any other school eating at their meal serving and
           counting site. We recognize that it could be a time consuming job to
           follow up at each of the remaining 416 schools. Therefore, we believe
           FNS needs to determine what additional follow up and corrective action is
           warranted on these potential overclaims.

                                       Require the SA to direct the SFA to accurately
  RECOMMENDATION NO. 6                 report daily attendance on their meal claim
                                       forms.

           FNS Response

           FNS officials responded that daily attendance data as part of the meal
           claim form is not required by regulations and to do so would require a
           change in the regulations for the national program. However, FNS can
           and will work with the SA and SFA to improve the SFA’s current edit check
           process and verify the accuracy of attendance reporting, and could agree
           with a recommendation to that effect.

           SA Response

           The SA officials responded that they agreed, in part, with the
           recommendation. They agreed that the SFA should obtain accurate
           counts of reimbursable meals served on a daily basis. They also agreed
           that the SFA should perform an edit check that compares average daily
           attendance against meal counts. They also stated the regulations do not
           require comparisons with actual daily attendance records. The SA
           officials did agree that the SFA needs to improve its internal controls and
           the SFA will work with them to do so. The SA expressed concerns that
           this recommendation would require the SFA to adhere to a higher
           standard than other SFAs and could result in the SFA failing to submit its
           meal claims within required timeframes.

           SFA Response

           The SFA officials disagreed that they were required to perform the cited
           edit check. They did recognize that meal claims in excess of attendance
           can sometimes be attributed to over-counting student meals. The SFA
           response acknowledges the need for performance improvement in this
           area.


USDA/OIG-A/27010-28-Hy                                                       Page 18
           To resolve the audit finding, the officials responded that the SFA would
           implement an improved edit check, which will help detect instances in
           which meal claims may potentially exceed students in attendance, by
           school lunch category. The SFA will develop a “crosswalk” between
           attendance reporting sites and meal-claiming sites to identify maximum
           meal count allowability by meal claiming site. The SFA will also
           investigate cases where the meal claim in a category exceeds the
           attendance figure and when the number of meals claimed is not
           determined to be supported by attendance records the SFA will adjust the
           school’s claim.

           OIG Position

           FNS has confirmed that the SFA was required to perform the cited edit
           check. Therefore, the SFA should have developed and implemented an
           attendance to meal count edit check, pursued potential problem claims,
           developed the “crosswalk” now being developed, and followed up on each
           potential overclaim.

           The FNS and SA comments that regulations do not require certain specific
           actions are correct. The regulations do, however, place the responsibility
           for establishing internal controls that ensure the accuracy of meal counts
           on the SFA. Implementing our recommendation will move the SFA closer
           to meeting this responsibility.

           To reach management decision on this recommendation, FNS needs to
           provide the date by which the agency plans to implement our
           recommendation.

                                      Require the SA to direct the SFA to perform
  RECOMMENDATION NO. 7                an edit check using daily attendance and daily
                                      meal counts, by category, and establish
                                      controls to provide accurate meal counts.
           FNS Response

           FNS agreed that improvements in meal counting and claiming as well as
           edit check controls should be made, but stated that FNS has no regulatory
           basis to require a remedy that compares actual daily attendance to meal
           counts. FNS agreed to suggest this to the SA and SFA as a good
           business practice and will work with the SA to direct the SFA to improve
           the current meal counting and claiming process as well as edit check
           controls.




USDA/OIG-A/27010-28-Hy                                                      Page 19
           SA Response

           The SA officials responded that they agreed, in part, with the
           recommendation. They agreed that the SFA should obtain accurate
           counts of reimbursable meals served on a daily basis. They also agreed
           that the SFA should perform an edit check that compares average daily
           attendance against meal counts. They stated the regulations do not
           require comparisons with actual daily attendance records. The SA
           officials did agree that the SFA needs to improve its internal controls. The
           SA expressed concerns that this recommendation would require the SFA
           to adhere to a higher standard than other SFAs and could result in the
           SFA failing to submit its meal claims within required timeframes.

           SFA Response

           The SFA officials responded that they will be implementing the
           recommendation and the details of their plan are outlined in their response
           to Recommendation No. 6.

           OIG Position

           The FNS and SA comments that regulations do not require certain specific
           actions are correct. The regulations do, however, place the responsibility
           for establishing internal controls that ensure the accuracy of meal counts
           on the SFA. Implementing our recommendation will move the SFA closer
           to meeting this responsibility.

           To reach management decision on this recommendation, FNS needs to
           provide details of how it will work with the SA to direct the SFA to improve
           the current meal counting and claiming process as well as edit check
           controls.

                                       If the SFA does not take timely action to
  RECOMMENDATION NO. 8                 implement    this  edit    check,   consider
                                       withholding administrative funding from the
                                       SA.
           FNS Response

           Based on FNS communications with the SA officials, the SA understands
           the need for improvement and has already been constructively engaged in
           corrections and improvements. If the SA was not, at some point FNS
           would consider withholding administrative funds. FNS officials responded
           that they do not believe this recommendation is necessary to ensure SA
           action with regard to this audit.



USDA/OIG-A/27010-28-Hy                                                        Page 20
           SA Response

           The SA will collaborate with the SFA to obtain accurate counts of
           reimbursable meals. If the meal counting and claiming processes
           improve, the discrepancies disclosed by edit checks should be greatly
           reduced. The SA concurred that edit checks are a useful internal control
           and support a comparison of daily counts against average daily
           attendance. The SA also does not believe this recommendation is
           necessary to ensure SA action with regard to this audit.

           SFA Response

           The SFA is planning to perform an edit check that compares daily meal
           counts, by category, to the daily attendance records by child’s eligibility
           category.

           OIG Position

           To reach management decision, FNS needs to ensure Recommendation
           No. 7 is implemented for SY 2002/2003. Otherwise, FNS should
           implement this recommendation.

                                       Determine how much of the $982,210 in
  RECOMMENDATION NO. 9                 potential excess reimbursement needs to be
                                       recovered.


           FNS Response

           FNS officials agreed with this recommendation.

           SA Response

           The SA officials agreed with the recommendation.

           SFA Response

           The SFA agreed to have FNS determine how much of the potential excess
           reimbursement should be recovered.

           OIG Position

           To reach management decision, FNS needs to implement the
           recommendation, bill the SA for the amount owed, and establish an
           account receivable for that amount.

USDA/OIG-A/27010-28-Hy                                                       Page 21
                                                            Determine how much of the $87,261 in
     RECOMMENDATION NO. 10                                  potential excess donated foods needs to be
                                                            recovered.


                    FNS Response

                    FNS officials stated they agree with this recommendation.

                    SA Response

                    The SA agreed with the recommendation.

                    SFA Response

                    The SFA agreed to have FNS determine how much of the potential excess
                    reimbursement should be recovered.

                    OIG Position

                    To reach management decision, FNS needs to implement the
                    recommendation, bill the SA for the amount owed, and establish an
                    account receivable for that amount.

                                       During SY 1998/1999, the SFA did not timely
        FINDING NO. 4                  or effectively monitor its schools’ meal
                                       counting and claiming systems. The SFA did
   SFA MONITORING OF MEAL              not timely complete 350 of 1,61016 required
   COUNTING AND CLAIMING               onsite reviews. The SFA did not assign
 SYSTEMS NEEDS IMPROVEMENT             sufficient staff to complete the reviews or
                                       establish controls to ensure corrective actions
           were taken on its review findings. As a result, the SFA has not
           implemented effective controls to provide reasonable assurance that the
           schools were reporting accurate meal counts, by category. Further, our
           onsite visits to 35 schools confirmed ongoing problems with meal counts
           and claims.

                    Regulations17 require the SFA to perform an onsite monitoring review of
                    the meal counting and claiming system used at each school under its
                    jurisdiction annually, by February 1. The regulation also requires the SFA
                    to: (1) ensure that each school found to have meal counting and claiming
                    deficiencies implements corrective action; and (2) conduct an onsite

16
     Even though claims were filed for no more than 1,465 meal service sites in any month during SY 1998/1999, the SFA records
     and statements showed they had to perform 1,610 visits.
17
     Title 7, CFR §210.8(a)(1), dated January 1, 1998.

USDA/OIG-A/27010-28-Hy                                                                                            Page 22
           followup review to determine whether the problem(s) have been resolved
           within 45 days.

           Our interviews with SFA staff disclosed that the SFA employs 10 monitors
           to perform the required onsite visits to 1,610 meal service sites and that
           each monitor is expected to visit two schools per day. Since about
           90 meal service days occur prior to February 1, the potential existed for
           the SFA to complete the reviews by the required date if each monitor
           visited two schools per day. However, as of January 28, 1999, only
           1,260 visits were completed.        Consequently, 350 visits were not
           completed by the regulatory deadline.

           Our onsite visits to 35 schools found problems similar to those found
           during the SFA monitoring reviews and/or disclosed problems with meal
           counts and claims that the monitors had not identified (see exhibit D).
           Examples of the problems noted during our onsite visits follow.

           •   Nine schools claimed more meals served some days than children in
               attendance, by category. The SFA monitoring visits to these nine
               schools did not disclose this problem.

           •   No point-of-service meal count was performed at 21 schools. The SFA
               monitors did not disclose this problem at 14 of these schools.

           •   School source meal count documentation did not agree with the daily
               meal count submitted to the SFA at 18 schools. The SFA monitors did
               not disclose this problem at 6 of these schools.

           We also found the SFA’s monitoring visits and followup performed did not
           ensure each school having meal counting and claiming deficiencies
           implemented adequate corrective action. According to the SFA staff,
           school principals are responsible for following up on problems disclosed.
           However, we did not find this delegated responsibility in writing. Examples
           of the lack of corrective action follow.

           •   The SFA monitors disclosed no point-of-service meal count at 12 of the
               schools we visited. Our onsite visits disclosed this problem was
               continuing and no corrective action had been implemented at 7 of
               these 12 schools.

           •   The SFA monitors disclosed that school source meal count
               documentation did not agree with the daily meal count submitted to the
               SFA at 16 schools we visited. Our onsite visits disclosed no corrective
               action had been implemented at 12 of these 16 schools.



USDA/OIG-A/27010-28-Hy                                                       Page 23
           Since the SFA did not complete the reviews timely, did not disclose
           serious problems, and did not obtain needed corrective action; we
           concluded the SFA’s monitoring program needs significant improvement.
           In New York City, the SFA must review meal counting and claiming
           systems at over 1,600 schools. This is a monumental task that, in our
           opinion, has resulted in a less than effective review process because it
           has not been well planned. We believe the monitoring process needs to
           be reassessed for its effectiveness to include: the resources devoted to
           conducting monitoring visits, the comprehensiveness of the reviews, and
           the corrective action and followup process.

                                   Require the SA and SFA to establish a
 RECOMMENDATION NO. 11             process that will provide more effective
                                   management controls for a large NSLP
                                   operation, to include controls to ensure
       (1) correction of identified deficiencies, (2) allocation of adequate
       resources for monitoring visits, and (3) effective staff training.

           FNS Response

           FNS officials agreed with this recommendation.

           SA Response

           The SA agreed with this recommendation.

           SFA Response

           The SFA’s response cited several actions that they propose to implement
           to strengthen monitoring to include:

           (1)   The SFA requested a waiver of the requirement for visiting each of
                 the over 1,600 schools annually from FNS.

           (2)   In lieu of these visits, the SFA proposed to focus intensively on
                 schools with a higher risk of having meal counting and claiming
                 deficiencies.

           (3)   The SFA will focus monitoring on schools in the base year of
                 Provision 2 to assure the procedures are followed correctly from the
                 beginning.

           (4)   Where possible and permissible, SFA technical advisors will request
                 that corrective action be taken at the time of the monitoring visit.



USDA/OIG-A/27010-28-Hy                                                      Page 24
           (5)   Findings will also be posted on a website to induce schools to
                 provide documentation that corrective action is taken.

           (6)   Followup visits will be performed.

           (7)   Annual evaluations will include a rating on the performance of NSLP
                 duties.

           (8)   The Office of the Auditor General, directly or through a third-party,
                 will review implementation of the action plan at the end of
                 SY 2002/2003.

           OIG Position

           We believe that FNS should grant the waiver and allow the SFA to
           implement the proposed corrective action plan.

           To reach management decision, FNS needs to provide details of how the
           agency will implement the recommendation, to include the date by which
           corrective action will be taken.

                                        Direct the SA to require the SFA to establish
 RECOMMENDATION NO. 12                  a followup system to ensure identified
                                        deficiencies are corrected.

           FNS Response

           FNS officials agreed with this recommendation.

           SA Response

           The SA officials agreed with this recommendation.

           SFA Response

           The SFA officials agreed with this recommendation.

           OIG Position

           To reach management decision, FNS needs to provide details of how the
           agency will implement the recommendation, to include the date by which
           corrective action will be taken.




USDA/OIG-A/27010-28-Hy                                                       Page 25
                                       The SFA needs to re-enforce record retention
      FINDING NO. 5                    requirements at its Provision 2 schools to
                                       support its ongoing entitlement to NSLP
APPROVED APPLICATIONS WERE reimbursement. We confirmed that only 21 of
   NOT RETAINED FOR THE                the 94 schools operating under Provision 2 for
  DURATION OF PROVISION 2              over three years retained the base-year
       OPERATIONS                      applications which support current meal
                                       claims. Although the SA verified the accuracy
         of the applications taken in the schools’ base-year of operation, the source
         records should have been retained to support meal claims during the
         duration of Provision 2 status. The SFA did not recognize the need for
         retaining the applications for the duration of Provision 2 operations. The
         NSLP regulations do not specifically address additional record retention
         requirements for Provision 2 operations. As a result, we were unable to
         confirm that the SA’s review provided reasonable assurance that NSLP
         applications were properly classified and approved for reimbursement.

                     According to regulations,18 SFA records shall be retained for a period of
                     three years after the date of submission of the final claim for
                     reimbursement for the fiscal year. FNS and SA officials advised us that,
                     since the applications taken during the first year of Provision 2 operations
                     are the basis for the claiming percentage for each subsequent fiscal year
                     of Provision 2 operations, the applications should be retained until three
                     years after the applications are no longer the basis of the claim for
                     reimbursement. The SA officials also told us they reviewed each school’s
                     application classification and meal counting process prior to authorizing
                     each school to operate under Provision 2. The SA officials believed their
                     review assured accurately classified applications regardless of whether or
                     not the SFA retained the records. The SFA officials told us that the
                     applications did not need to be retained for the duration of Provision 2
                     operations. Their interpretation was that the base-year applications were
                     records that only supported the base-year claim and were not related to
                     any subsequent claims. The SFA officials did not know whether the
                     schools maintained the base-year applications.

                     OIG sent confirmation letters to the 94 schools operating for over three
                     years under Provision 2 to determine whether the schools had retained
                     the base-year applications so that we could confirm the accuracy of the
                     SA’s review process (see exhibit E). OIG also sent followup letters to
                     those schools that did not respond to the initial confirmation letter. Replies
                     were received from 50 schools and 44 schools did not respond. The
                     responses confirmed that only 21 schools retained the base-year
                     applications. Base-year applications were not maintained, or could not be


18
     Title 7, CFR § 210.23, dated January 1, 1998.

USDA/OIG-A/27010-28-Hy                                                                    Page 26
           confirmed as maintained, for 73 schools that receive an annual
           reimbursement of about $15 million.

           During our audit field work, the SA issued statewide guidance requiring
           SFAs to retain base-year applications. On September 20, 2001, FNS
           issued a final regulation to revise 7 CFR § 245.9(g) to specifically require
           that the base-year applications be retained for the duration of Provision 2
           operations plus 3 years.

                                    Direct the SA to conduct a review to determine
 RECOMMENDATION NO. 13              if Provision 2 schools are retaining
                                    applications in accordance with the SA
                                    guidance. If applications are not retained,
       direct the SA to require the SFA to take new applications prior to granting
       an extension of the Provision 2 period.

           FNS Response

           FNS officials agreed with this recommendation.

           SA Response

           The SA officials agreed with this recommendation. The SFA also agreed
           that if a school cannot provide the applications from the base year, the
           school will have to begin a new base year.

           SFA Response

           The SFA officials responded that they do not believe a shortfall in retaining
           base year applications should require obtaining new applications
           particularly since the proposed technical assistance will focus on the
           Provision 2 base year schools. The SFA is not aware of any legal
           authority for such a step.

           OIG Position

           To reach management decision on this recommendation, FNS needs to
           provide the date by which the agency will provide the necessary direction
           to the SA.




USDA/OIG-A/27010-28-Hy                                                         Page 27
EXHIBIT A – SUMMARY OF MONETARY RESULTS



   Recommendation          Description           Amount            Category
        No.
         5          Applications were not         $18,932   Questioned Cost -
                    reclassified based upon                 Recovery
                    verification                            Recommended

         9          Meals claimed in excess of   $120,210   Questioned Cost -
                    children in attendance                  Recovery
                                                            Recommended

         9          Meals claimed in excess of   $862,000   Questioned Cost -
                    children in attendance                  Recovery
                                                            Recommended

         10         Value of excess USDA          $87,261   Questioned Cost -
                    donated foods obtained                  Recovery
                                                            Recommended




USDA/OIG-A/27010-28-Hy                                                        Page 28
EXHIBIT B – SCHOOLS VISITED TO TEST MEAL COUNTING AND
            CLAIMING SYSTEMS

      Recipient
      Agency
      No.              School Number and/or Name                    Borough         ZIP
      0203             PS 2       Meyer London School               Manhattan       10002
      0215             PS 33      Chelsea School                    Manhattan       10001
      0221             PS 42      Benjamin Altman School            Manhattan       10002
      0234                        Manhattan Academy of Technology   Manhattan       10002
      0257             IS 131     Dr. Sun Yat Sen School            Manhattan       10002
      0630             PS 252     at McBurney School                Manhattan       10023

      0825             PS 100     Issac Clason School               Bronx           10473
      0831             PS 119                                       Bronx           10472
      0843             PS 138     Samuel Randall School             Bronx           10473
      0849             PS 152     Community                         Bronx           10472
      8644*                       Our Lady of Mercy                 Bronx           10458
      8654*                       St. Phillip and St. James         Bronx           10469

      1335             PS 282     Park Slope Elementary School      Brooklyn        11217
      1523             PS 94      Longfellow School                 Brooklyn        11220
      1527             PS 124     Silas B. Dutcher School           Brooklyn        11215
      1543             PS 172     Gowanus School                    Brooklyn        11232
      1723             PS 241     Emma Johnson School               Brooklyn        11225
      2009             PS 105     Blythebourne School               Brooklyn        11219
      2019             PS 164     Rodney                            Brooklyn        11219
      2151             PS 288     Shirley Tanhill School            Brooklyn        11224
      2155             PS 329     Surfside School                   Brooklyn        11224

      2419             PS 81      Jean P. Ritcher School            Queens          11385
      2702             PS 43                                        Queens          11691
      2731             PS 105     Bay School                        Queens          11691
      2765             PS 225     Seaside School                    Queens          11694
      2841             PS 160     Walter F. Bishop School           Queens          11435
      3017             PS 85      Judge Vallone                     Queens          11105
      3019             PS 92      Charles Leverich                  Queens          11368
      7531             PS 16                                        Queens          11368

      3118             PS 18      Greenleaf Whittier                Staten Island   10310
      3157             PS 57      Hubert Humphrey School            Staten Island   10304
      8691*                       Our Lady of Mt. Carmel            Staten Island   10310


      0103             PS 19      Asher Levy                        Manhattan       10003
      1727             PS 249     Canton Avenue School              Brooklyn        11226
      1021             PS 59      Friendly                          Bronx           10457

     * Non-Public Schools




USDA/OIG-A/27010-28-Hy                                                                      Page 29
EXHIBIT C – SCHOOLS VISITED TO TEST WHETHER APPLICATIONS
            WERE CORRECTED BASED UPON VERIFICATION
            RESULTS

Recipient                                 Applications   Applications
Agency                                         In            Not
No.         School Name/Number              Error         Changed

8601        Immaculate Conception              11              2
8702        Lorges School                       9              0
8621        Blessed Sacrament                  13              7
8223        Jane Addams High School            12             12
1060        PS 86, Mini                         9              4
1143        F.P. Whalen Junior High            10             10
            School
1305        PS 9, Teunnis G. Bergin            11              9
            School
8717        Brooklyn Temple                    10             10
8375        PS 575, Pacific High School        14             14
8315        Erasmus Hall School                33             33
8603        St. Catherine of Genoa              8              1
2001        PS 48, Mapleton School              6              1
2109        PS 97, Highlawn School              4              4
2203        PS 52, Sheepshead Bay               4              4
            School
2401        PS 12, James B. Colgate            10              0
            School
2509        IS 25, Adrien Block School          5              0
2611        MS 67, L. Pasteur School           11              9
2715        PS 63, Old South School            11              6
2821        PS 86, in Queens                    5              0
2919        PS 95, in Queens                    7              6
3019        PS 92, Harry T. Stewart             8              0
            School
3124        IS 24, S. Barnes School             8              0
3221        PS 274, Kosciusko School            6              5

            Total                             225            137




USDA/OIG-A/27010-28-Hy                                       Page 30
EXHIBIT D – MEAL COUNTING AND CLAIMING DEFICIENCIES

                                                                                  Page 1 of 2

  OIG visits to 35 schools disclosed the following meal counting and claiming
  deficiencies:

  •   21 schools, or 60 percent did not perform a point-of-service meal count as
      required by 7 CFR 210.7(c)(1)(iii), dated January 1, 1998, and New York City
      Board of Education (NYC-BOE) Regulation of the Chancellor No. A-815,
      Section 2.1.1, dated August 10, 1998.

  •   13 schools, or 37 percent reported inaccurate enrollment information on the Report
      of Meals Served (MIE-1 form) in violation of NYC-BOE Regulation of the Chancellor
      No. A-815, Section 7.1, dated August 10, 1998.

  •   13 schools, or 37 percent reported inaccurate eligibility information; i.e., the
      application count, on the Report of Meals Served (MIE-1 form), in violation of
      NYC-BOE Regulation of the Chancellor No. A-815, Section 7.1, dated
      August 10, 1998.

  •   18 schools, or 51 percent reported incorrect meal count information on the Report
      of Meals Served (MIE-1 form) in violation of 7 CFR 210.7(c)(1)(iv), dated January 1,
      1998, which requires the SFA to correctly report and consolidate the lunch counts
      on the claim and in violation of NYC-BOE Regulation of the Chancellor No. A-815,
      Section 7.1, dated August 10, 1998.

  •   26 schools, or 74 percent reported inaccurate average daily attendance information
      on the Report of Meals Served (MIE-1 form) in violation of NYC-BOE Regulation of
      the Chancellor No. A-815, Section 7.1, dated August 10, 1998.

  •   6 schools, or 17 percent claimed all students received free meals regardless of the
      students' actual eligibility category status or the actual meal count. Title 7,
      CFR 210.7(c)(1)(iii), dated January 1, 1998, requires lunch counts, taken daily at
      the point-of-service, to correctly identify the number of free, reduced-price, and paid
      lunches served to eligible children.

  •   9 schools, or 26 percent claimed meal counts in excess of students in attendance.
      Title 7, CFR 210.7(c)(1)(iii), dated January 1, 1998, requires lunch counts, taken
      daily at the point-of-service, to correctly identify the number of free, reduced-price,
      and paid lunches served to eligible children.




USDA/OIG-A/27010-28-Hy                                                             Page 31
                                                                               Page 2 of 2

  •   7 schools, or 20 percent claimed lunch counts that were substantially higher than
      OIG’s lunch counts performed at the same time. These schools could provide no
      acceptable explanation for the differences.

  •   5 schools, or 14 percent claimed free and/or reduced-price meal counts that
      exceeded the number of approved free and/or reduced-price applications on hand.
      Title 7, CFR 210.7(c), dated January 1, 1998, requires claims for reimbursement to
      be limited to the number of free, reduced-price, and paid lunches and meal
      supplements that are served to children eligible for free, reduced-price, and paid
      lunches and meal supplements, respectively, for each day of operation.

  •   20 schools, or 57 percent could not locate some of the applications OIG selected
      for testing.    The schools could not provide 303, or 7 percent of the
      4,341 applications requested for audit.

  •   20 schools, or 57 percent had incorrect eligibility coding entered into the onsite
      automated system.

  •   14 schools, or 40 percent made incorrect eligibility determinations on the basis of
      information provided on the applications.

  •   14 schools, or 40 percent made eligibility determinations even though the
      applications were substantially incomplete or were missing essential information.




USDA/OIG-A/27010-28-Hy                                                          Page 32
EXHIBIT E – RECORD RETENTION WEAKNESSES AT PROVISION 2
            SCHOOLS
                                                                            Page 1 of 2

Recipient                                             Did      Replied
Agency                                                Not     Records Not      Program
No,         School Name/Number                        Reply    Available       Earnings

1701        IS 61, Atwell Gladstone                      x                  $109,563.71
1702        PS 12                                        x                  $206,310.74
1704        IS 2                                                   x        $264,893.76
1707        PS 138                                                 x        $353,482.34
1709        PS 161                                                 x        $336,770.70
1713        PS 181, William Malbin School                x                  $518,817.75
1715        PS 189, Lincoln Terrace                      x                  $337,907.68
1721        PS 221, Empire School                        x                  $266,412.34
1727        PS 249, Caton Avenue School                  x                  $328,999.24
1735        IS 391, M. Jackson Intermediate School                 x        $108,642.64
1737        PS 397, Foster Laurie Elementary School      x                  $130,514.06
1739        PS 398, Walter Weaver School                           x        $303,745.30
1741        PS 399                                       x                  $142,426.60
0501        IS 10, Fredrick Douglas Academy              x                   $88,372.99
0503        PS 30, R. Hernandez/L. Hughes School         x                  $277,988.09
0505        PS 36, Margaret Douglas School               x                  $215,859.30
0507        JHS 43, A. C. Powell Junior High             x                  $177,622.21
0509        PS 46, Tappan School                         x                  $284,543.31
0511        PS 92, Mary M. Bethune School                x                  $194,698.19
0517        PS 129, John H. Finley School                x                  $259,462.10
0523        PS 154, Harriet Tubman School                x                  $173,126.05
0527        PS 175, H. H. Garnet School                  x                  $149,144.11
0531        IS 195, R. Clemente Intermediate School      x                  $138,929.30
0101        PS 15, Roberto Clemente                      x                   $93,368.93
0105        PS 20, Anna Silver                                     x        $317,993.98
0107        JHS 22, G Straubenmuller                               x         $56,973.80
0109        Marta Valle Model High School                          x        $109,648.93
0111        PS 34, F. D. Roosevelt School                x                  $136,334.60
0115        JHS 60, Ottilia Beha Junior High             x                  $125,995.29
0117        PS 61, Anna Howard Shaw School               x                   $80,565.80
0119        PS 63, William McKinley School                         x        $120,828.85
0121        PS 64, Robert Simon School                   x                  $124,210.69
0123        PS 97, Mangin School                                   x        $129,711.91
0125        PS 110, F. Nightingale School                x                  $120,420.44
0127        PS 134, Henrietta Szold School                         x        $147,005.51
0130        488, Lower East Side @ PS15                            x         $21,492.19
0131        PS 140, Nathan Straus School                           x        $149,435.95
0133        PS 142, Amalia Castro School                           x        $149,883.85
0135        PS 188, John Burroughs School                x                  $135,921.55
0901        PS 2, Morrisania School                      x                  $193,575.99
0903        PS 4, Crotona School                         x                  $228,789.40
0907        JHS 22, Jordon L. Mott Junior High           x                  $239,315.46
0909        PS 28, Mt. Hope School                       x                  $348,764.09

USDA/OIG-A/27010-28-Hy                                                        Page 33
                                                                                       Page 2 of 2


Recipient                                                   Did           Replied
Agency                                                      Not          Records Not     Program
No,         School Name/Number                              Reply         Available      Earnings


    0911       PS 35, Franz Sigel School                                          x       $232,924.99
    0913       PS 42, Claremont School                                            x       $186,027.34
    0915       PS 53, Basheer Quisim School                                       x       $336,147.33
    0917       PS 55                                                              x       $351,036.08
    0919       PS 58                                                 x                    $179,976.95
    0921       PS 63                                                 x                    $198,168.51
    0923       PS 64, Pura Relpre School                             x                    $311,293.90
    0925       PS 70, Max Schoenfeld School                                       x       $489,946.51
    0927       PS 73                                                 x                    $332,659.75
    0929       JHS 82, Macombs Junior High                           x                    $229,096.76
    0931       PS 88                                                              x       $167,657.56
    0933       PS 90, George Meany School                            x                    $460,101.10
    0935       PS 104, Abraham Ehrenfeld                             x                    $326,673.40
    0937       PS 109, Sedgewick School                                           x       $267,931.69
    0939       PS 110, Theo Schoenfeld School                        x                    $251,417.95
    0941       PS 114, Luis Liorens Torres                           x                    $282,374.06
    0943       JHS 117, Joseph H. Wade Junior High                   x                    $223,957.96
    0947       PS 132, Garrett A. Morgan School                                   x       $266,873.74
    0951       IS 147, Diana Sands Intermediate School               x                    $267,702.00
    0953       JHS 148, Chas. A. Drew Intermediate School            x                     $77,910.01
    0954       PS 235 @ JHS 148, Rafael H. Bilingual                              x        $93,691.49
    0955       PS 163, Arthur A. Schomberg School                                 x       $242,033.16
    0957       IS 166/R. Clemente Intermediate School                             x       $287,955.80
    0958       PS 204                                                x                    $147,729.10
    0959       IS 229/PS 230, Dr. R. Patterson                       x                    $210,199.73
    0961       PS 236, Langston Hughes School                                     x        $39,013.63
    0962       PS 170                                                             x        $84,927.19
    0963       629/IS 229, Patterson Intermediate School                          x       $142,133.01
    0965       855/PS 53 Annex                                                    x       $139,310.39
    0966       856/Project Prep.                                     x                          $0.00
                                                                    __          __      ____________
               Total                                                44          29
                                                                                        $15,225,340.76




 USDA/OIG-A/27010-28-Hy                                                                 Page 34
EXHIBIT F – FOOD AND NUTRITION SERVICE RESPONSE TO THE
            DRAFT REPORT

                                                 Page 1 of 4




USDA/OIG-A/27010-28-Hy                             Page 35
                         Page 2 of 4




USDA/OIG-A/27010-28-Hy     Page 36
                         Page 3 of 4




USDA/OIG-A/27010-28-Hy     Page 37
                         Page 4 of 4




USDA/OIG-A/27010-28-Hy     Page 38
EXHIBIT G – STATE AGENCY RESPONSE TO THE DRAFT REPORT

                                                Page 1 of 4




USDA/OIG-A/27010-28-Hy                            Page 39
                         Page 2 of 4




USDA/OIG-A/27010-28-Hy     Page 40
                         Page 3 of 4




USDA/OIG-A/27010-28-Hy     Page 41
                         Page 4 of 4




USDA/OIG-A/27010-28-Hy     Page 42
EXHIBIT H – SCHOOL FOOD AUTHORITY RESPONSE TO THE DRAFT
            REPORT

                                               Page 1 of 16




USDA/OIG-A/27010-28-Hy                             Page 43
                         Page 2 of 16




USDA/OIG-A/27010-28-Hy       Page 44
                         Page 3 of 16




USDA/OIG-A/27010-28-Hy       Page 45
                         Page 4 of 16




USDA/OIG-A/27010-28-Hy       Page 46
                         Page 5 of 16




USDA/OIG-A/27010-28-Hy       Page 47
                         Page 6 of 16




USDA/OIG-A/27010-28-Hy       Page 48
                         Page 7 of 16




USDA/OIG-A/27010-28-Hy       Page 49
                         Page 8 of 16




USDA/OIG-A/27010-28-Hy       Page 50
                         Page 9 of 16




USDA/OIG-A/27010-28-Hy       Page 51
                         Page 10 of 16




USDA/OIG-A/27010-28-Hy        Page 52
                         Page 11 of 16




USDA/OIG-A/27010-28-Hy        Page 53
                         Page 12 of 16




USDA/OIG-A/27010-28-Hy        Page 54
                         Page 13 of 16




USDA/OIG-A/27010-28-Hy        Page 55
                         Page 14 of 16




USDA/OIG-A/27010-28-Hy        Page 56
                         Page 15 of 16




USDA/OIG-A/27010-28-Hy        Page 57
                         Page 16 of 16




USDA/OIG-A/27010-28-Hy        Page 58
                                                  ABBREVIATIONS

CFR
  Code of Federal Regulations....................................................................................................... 1

FNS
  Food and Nutrition Service.......................................................................................................... i

NSLP
  National School Lunch Program.................................................................................................. i
NYC-BOE
  New York City Board of Education.......................................................................................... 31

OIG
  Office of Inspector General ......................................................................................................... i
OSFNS
  Office of School Food and Nutrition Services............................................................................. i

SA
  State agency ................................................................................................................................. i
SFA
  School Food Authority................................................................................................................. i
SY
  School Year.................................................................................................................................. i

USDA
  U.S. Department of Agriculture................................................................................................... i
